TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Internal Revenue Service Is Successfully
                  Taking Steps to Transition Modernization
                   Activities From the PRIME Contractor;
                   However, Difficult Challenges Remain



                                        October 24, 2006

                              Reference Number: 2007-20-003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                October 24, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Internal Revenue Service Is Successfully
                                 Taking Steps to Transition Modernization Activities From the PRIME
                                 Contractor; However, Difficult Challenges Remain
                                 (Audit # 200620037)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was sufficiently planning, obtaining resources, and executing modernization activities to
 transition activities from the PRIME contractor 1 for the Business Systems Modernization
 program.
 The IRS initially partnered with the PRIME contractor to achieve its overall goal of modernizing
 business processes and systems to improve service quality, timeliness, reliability, and privacy.
 The IRS relied on the PRIME contractor to act as a systems integrator to find and manage the
 best expertise and technical resources to achieve the IRS’ organizational goals.
 In January 2005, due to budget reductions and concerns about the adequacy of the PRIME
 contractor’s performance, the IRS began transitioning numerous activities from the PRIME
 contractor and taking over the primary role as the systems integrator for all projects. The
 systems integrator role is a significant operational change for the IRS, requiring new procedures,
 personnel, and offices.

 Impact on the Taxpayer
 The IRS has successfully taken the first steps to transition modernization activities from the
 PRIME contractor and is taking additional actions to build on these initial steps. However, the
 IRS has not developed performance measures for all of the transitioned activities that can be

 1
     See Appendix IV for a glossary of terms.
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain


measured. As a result, it does not have an objective method of determining if transitioned
activities are being accomplished effectively and taxpayer funds are being used efficiently.

Synopsis
The IRS has effectively assumed 2 (14 percent) of 14 modernization activities. For example, the
IRS filled 8 of the 10 vacant positions in the Modernization Program Engineering Office and
eliminated all contractor support. In addition, the IRS simplified the Enterprise Life Cycle,
which had been previously maintained by the PRIME contractor.
For the remaining 12 activities, the IRS has taken good first steps and established an initial
capability. For example, the IRS developed the Enterprise Transition Strategy, which documents
the overall strategy for realizing the vision and goals of the IRS. In addition, the IRS completed
its first update to the Modernization Vision and Strategy since 2002.
Until additional actions are taken and the IRS has more time to consistently use new processes
and strengthen its new capabilities, it is difficult to judge the eventual success of the IRS’
actions. Due to the significance of the transitioned activities, it will be important to measure how
effectively activities are being accomplished as improvements are made.
The IRS has not developed performance measures for all of the transitioned modernization
activities that can be measured. Most of management’s focus has been on hiring staff to perform
transitioned activities and getting processes and procedures developed and implemented.
However, we believe it is now time to begin measuring progress.

Recommendation
To ensure the IRS is successful in performing modernization activities that have been
transitioned from the PRIME contractor, we recommended the Chief Information Officer ensure
performance measures are developed for each IRS modernization activity that can be measured.

Response
The Chief Information Officer agreed with our recommendation and provided information
regarding transition areas where the IRS has made progress since the conclusion of our audit.
For example, the IRS implemented new change management procedures and developed a suite of
templates to support requirements development and management. To ensure the IRS is
successful in performing modernization activities that have been transitioned from the PRIME
contractor, the IRS will develop a plan to identify potential performance metrics for each
measurable transitioned modernization activity. Management’s complete response to the draft
report is included as Appendix VI.

                                                                                                  2
                The Internal Revenue Service Is Successfully Taking Steps to
               Transition Modernization Activities From the PRIME Contractor;
                            However, Difficult Challenges Remain


Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                             3
                      The Internal Revenue Service Is Successfully Taking Steps to
                     Transition Modernization Activities From the PRIME Contractor;
                                  However, Difficult Challenges Remain




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Has Successfully Taken the First Steps
          to Perform Transitioned Modernization Activities .......................................Page 4
          The Internal Revenue Service Is Taking Additional Actions to Improve
          Its Ability to Perform Transitioned Modernization Activities......................Page 5
          The Internal Revenue Service Should Measure How Effectively
          Transitioned Modernization Activities Are Being Performed......................Page 8
                    Recommendation 1:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Glossary of Terms................................................................Page 14
          Appendix V – Independent Assessment of the Status of Transitioned
          Modernization Activities ..............................................................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 26
         The Internal Revenue Service Is Successfully Taking Steps to
        Transition Modernization Activities From the PRIME Contractor;
                     However, Difficult Challenges Remain




                        Abbreviations

ELC                 Enterprise Life Cycle
GAO                 Government Accountability Office
HPI                 Highest Priority Initiatives
IRS                 Internal Revenue Service
TIGTA               Treasury Inspector General for Tax Administration
                      The Internal Revenue Service Is Successfully Taking Steps to
                     Transition Modernization Activities From the PRIME Contractor;
                                  However, Difficult Challenges Remain




                                               Background

In 1998, the Internal Revenue Service (IRS) initiated the Business Systems Modernization
program to modernize its outdated computer systems and associated processes. To facilitate the
success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the
PRIME contractor.1
The IRS initially partnered with the PRIME contractor to achieve its overall goal of modernizing
business processes and systems to improve service quality, timeliness, reliability, and privacy.
The IRS relied on the PRIME contractor to act as a systems integrator to find and manage the
best expertise and technical resources to achieve the IRS’ organizational goals. In January 2005,
due to budget reductions and concerns about the adequacy of the PRIME contractor’s
performance, the IRS began transitioning numerous activities from the PRIME contractor and
taking over the primary role as the systems integrator for all projects. The systems integrator
role is a significant operational change for the IRS, requiring new procedures, personnel, and
offices.
IRS officials used the Highest Priority Initiatives (HPI), a program of continual process
improvement with executive-level oversight, to transition high-priority modernization activities
from the PRIME contractor to the IRS. Under the HPI process, IRS executives identify the
highest priority programs every 6 months and appoint an IRS executive and senior manager to
oversee the execution of each HPI. Figure 1 provides a listing of the HPI activities we reviewed
as part of this audit.




1
    See Appendix IV for a glossary of terms.
                                                                                          Page 1
                    The Internal Revenue Service Is Successfully Taking Steps to
                   Transition Modernization Activities From the PRIME Contractor;
                                However, Difficult Challenges Remain



                                        Figure 1: HPI Activities

 Activity                    Brief Description
 Human Capital               Design a strategy to recruit and hire staff with needed skills for
                             modernization.
 Program Management          Design a training program to enhance the program management skills of
                             the IRS staff.
 Systems Engineering         Hire 80 percent of the engineering staff needed in the Modernization
                             Program Engineering Office.
 Standard Contracting        Develop language for all contractors to follow when competing for IRS
 Language                    modernization contracts.
 Quality Assurance           Develop a process for implementing quality assurance in the IRS
                             modernization program.
 Integrated Schedule         Develop a plan to implement integrated schedule and baseline
 and Baseline                management.
 Management
 Cost and Schedule           Develop cost and schedule estimation processes and identify gaps
 Estimation                  between the IRS’ existing capabilities and the Software Engineering
                             Institute’s estimation requirements.
 Change Management           Revise the change request processes.
 Extensible Markup           Establish a working group and issue draft Naming and Design Rules.
 Language
 Business Rules              Establish a limited initial operational capability for business rules
                             including having the appropriate skills and processes in place.
 Requirements                Develop a Concept of Operations, establish an office, and begin pilot
 Management                  operations.
 Enterprise Transition       Develop volume 1 of the Enterprise Transition Strategy.
 Strategy
 Modernization Vision        Develop a high-level modernization vision and strategy document.
 and Strategy
 Enterprise Life Cycle       Revise the ELC Guide to include paths common to IRS modernization
 (ELC)                       projects.
Source: Treasury Inspector General for Tax Administration (TIGTA) summary of HPI status reports.



                                                                                                   Page 2
                    The Internal Revenue Service Is Successfully Taking Steps to
                   Transition Modernization Activities From the PRIME Contractor;
                                However, Difficult Challenges Remain



The IRS also changed its requirements for acquiring systems and the contractor’s requirements
for developing systems. Prior to the transition of modernization activities, the IRS required the
PRIME contractor to maintain a Capability Maturity Model® Software Acquisition Level 3 rating
and a Capability Maturity Model® Software Development Level 3 rating. However, under the
new structure, IRS officials stated they only require contractors to maintain a Capability Maturity
Model® Software Development Level 2 rating and are using the HPI process instead of the
Capability Maturity Model® to ensure systems are acquired properly.
IRS officials informed us the HPIs included activities the PRIME contractor was not performing
well, but did not include all of the activities the IRS would take over. Since the activities
included in the HPIs were viewed by the IRS as the high-level activities transitioning to the IRS,
our review focused on the 14 HPIs identified jointly by the IRS and the audit team.2 Our review
did not include any of the activities which were not controlled through the HPI process.
This audit was performed at the Modernization and Information Technology Services
organization’s office in New Carrollton, Maryland, during the period October 2005 through
June 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
 The IRS identified a fifteenth transition area; however, we determined it did not relate to the transition from the
PRIME contractor to the IRS.
                                                                                                               Page 3
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain




                                 Results of Review

The IRS has successfully taken the first steps to transition modernization activities away from
the PRIME contractor and is taking additional actions to
build on these initial steps. Until these additional actions         The IRS has successfully
are taken and the IRS has more time to consistently use new           taken the first steps to
processes and strengthen its new capabilities, it is difficult to transition activities away from
judge the eventual success of the IRS’ actions. Due to the            the PRIME contractor.
significance of the transitioned activities, it will be
important to measure how effectively activities are being
accomplished as improvements are made.

The Internal Revenue Service Has Successfully Taken the First Steps
to Perform Transitioned Modernization Activities
As part of the HPI process, IRS officials created 6-month individual plans with goals, known as
closure criteria, for each transitioned activity. We reviewed the individual plans and determined
the IRS established appropriate closure criteria. We also reviewed the closed HPIs and
determined the IRS satisfied the closure criteria.
In January 2005, the IRS learned it would be receiving a larger than expected budget cut. As a
result, it had to assume modernization activities quickly because it could no longer afford to pay
for all of the PRIME contractor’s services. Therefore, the plans and actions we reviewed were
viewed as the steps needed to establish an initial capability. Additional steps to build on this
capability are now underway. We determined the IRS is effectively performing
2 (14 percent) of the 14 modernization activities. For the remaining 12 activities, the IRS has
taken good first steps and established an initial capability; however, ongoing actions need to be
completed before we can determine whether the IRS will be successful in performing
transitioned activities. Figure 2 graphically presents our opinion of the IRS’ success in
performing modernization activities.




                                                                                             Page 4
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



            Figure 2: TIGTA’s Opinion on the IRS’ Success in Performing
                              Modernization Activities

                                                               Effective
                                                                  14%




                     Additional Actions
                     Needed to Judge
                       Effectiveness
                            86%


           Source: TIGTA analysis of the current status of 14 transitioned modernization activities.

The IRS effectively performed the following two transitioned modernization activities.
Systems Engineering – The IRS accomplished its goal of filling 8 of the 10 vacant positions in
the Modernization Program Engineering Office and eliminated all contractor support. Project
teams that have recently used the services of this Office provided positive feedback.
ELC – The IRS simplified the ELC, which had been previously maintained by the PRIME
contractor, to include only the information commonly needed by IRS modernization projects. In
addition, the IRS ELC staff has begun assisting project teams. Project teams that have recently
used the services of the ELC staff provided positive feedback.
For the remaining 12 modernization activities, the IRS has successfully taken first steps and is
taking additional actions to build on these initial steps.

The Internal Revenue Service Is Taking Additional Actions to Improve
Its Ability to Perform Transitioned Modernization Activities
Whether the IRS will be successful in performing transitioned modernization activities is
difficult to judge at this time due to the need for the IRS to consistently use new processes and
take additional actions to improve on the initial capabilities it has established.

The IRS has initiated additional actions to improve its capabilities
During our review, the IRS initiated additional actions to improve its capability to perform
transitioned modernization activities. In some cases, the enhancements go beyond the activities

                                                                                                       Page 5
                      The Internal Revenue Service Is Successfully Taking Steps to
                     Transition Modernization Activities From the PRIME Contractor;
                                  However, Difficult Challenges Remain



once performed by the PRIME contractor. The following are several examples of transitioned
modernization activities and ongoing actions the IRS is taking to be successful in performing the
activities.3
Integrated schedule and baseline management
An Integrated Master Schedule provides a schedule for project development and integration of
all modernization projects. To develop an Integrated Master Schedule, the IRS developed an
implementation plan. As part of a follow-up HPI, the IRS subsequently developed templates for
an integrated work breakdown structure and schedule. To fully implement this capability,
project teams will need to consistently use the templates and the IRS will need to begin
managing dependencies between projects using the Schedule.
Cost and schedule estimation
The IRS analyzed its cost and schedule estimation capability and identified needs it has to
address to achieve estimation best practices. Due to resource constraints, the IRS’ initial work
has been limited to drafting a Cost and Schedule Estimation Concept of Operations and
providing independent cost estimates to modernization projects.
We interviewed three project teams that had used the independent cost estimates. Two project
teams stated the independent estimates assisted them in obtaining a lower price for contracted
services. The other project team stated it did not find the independent cost estimate to be as
useful.
Management Actions: We determined the draft Cost and Schedule Estimation Concept of
Operations did not provide for obtaining feedback from project teams that had used the services
of the cost and schedule estimation team. Upon discussing this with IRS officials, the IRS
revised its process to obtain feedback from project teams.
Standard contracting language
The IRS developed standard contracting language to ensure it receives the same information
from all modernization contractors. The contracting language has been used in a task order for
one project release. As we were concluding our audit, the IRS was ensuring other contracting
officials had access to the language. Until the IRS is consistently using the new language, it is
difficult to judge whether the IRS will be successful in ensuring all modernization contractors
comply with a standard set of requirements.
The Enterprise Transition Strategy and the Modernization Vision and Strategy
The IRS developed the Enterprise Transition Strategy, which documents the overall strategy for
realizing the vision and goals of the IRS. In addition, the IRS completed its first update to the
Modernization Vision and Strategy since 2002. As we were completing our audit, the IRS was

3
    See Appendix V for our independent assessment of the status of each program transition area.
                                                                                                   Page 6
                    The Internal Revenue Service Is Successfully Taking Steps to
                   Transition Modernization Activities From the PRIME Contractor;
                                However, Difficult Challenges Remain



creating the Enterprise Transition Plan from the Enterprise Transition Strategy and the
Modernization Vision and Strategy and developing procedures to ensure the Modernization
Vision and Strategy is updated yearly. This is being tracked as part of a follow-up HPI. Until
the IRS consistently performs this activity, it is difficult to judge whether the IRS will be
successful in updating its Enterprise Transition Plan yearly.
Business rules and requirements management
The Business Rules and Requirements Management Office has been fully staffed. However, the
Government Accountability Office (GAO) recently reported modernization projects were not
consistently following requirements development and management practices, and the IRS would
not have a full suite of requirements processes until March 2007.4 We interviewed two project
teams that have received assistance from the Business Rules and Requirements Management
Office. One project team stated the assistance helped explain to the contractor how the business
rules should be traced to the system design. The other project team believed the assistance was
good although some responsibilities were not clearly defined.
The IRS is taking corrective actions based on the GAO recommendation and it will take time for
the IRS to mature its Business Rules and Requirements Management capabilities. Until then, it
is difficult to judge whether the IRS will be successful in managing business rules and
requirements.

The IRS has made progress in hiring staff with the required skills to perform
transitioned modernization activities
In Fiscal Year 2005, the IRS received approval to hire 47 employees5 to perform transitioned
modernization activities. As of March 2006, the IRS had filled 28 (60 percent) of the
47 positions.6 According to the IRS, it has been focusing on the most critical activities and
accomplishing some of the work through contractors until it can complete its hiring.
We reviewed the job announcements and applications submitted for 8 (29 percent) of the
28 employees hired as of March 2006 and determined the new employees have the required key
skills and abilities to perform transitioned modernization activities.
The remaining vacancies are in the Systems Integration function. The IRS learned through the
applications review and interview process some positions are difficult to fill. As a result, it had
to close some vacancy announcements without selecting any of the applicants. The Systems


4
  Business Systems Modernization: IRS Needs to Complete Recent Efforts to Develop Policies and Procedures to
Guide Requirements Development and Management (GAO-06-310, dated March 2006).
5
  The 47 positions approved in Fiscal Year 2005 were allocated to 3 modernization functions as follows: 19 to
Business Integration, 6 to Program Management, and 25 to Systems Integration. The positions allocated equal
50 because some approved positions were not funded and the IRS used existing hiring authority to fill 3 vacancies.
6
  As of June 30, 2006, the IRS informed us it had filled all but six positions.
                                                                                                            Page 7
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



Integration function has hiring plans to fill these remaining positions. In addition, the Deputy
Associate Chief Information Officer, Systems Integration, informed us the IRS was expanding its
search by advertising in the newspaper to attract nonGovernment applicants.
While we determined the IRS has successfully taken the first steps to transition modernization
activities, the IRS now needs to focus on completing additional actions and measuring its success
in performing transitioned activities.

The Internal Revenue Service Should Measure How Effectively
Transitioned Modernization Activities Are Being Performed
The Software Engineering Institute’s Capability Maturity Model® Integration is a process
improvement approach that provides organizations with the essential elements of effective
processes. The Model provides best practices that can be used to guide process improvement
across a project, a division, or an entire organization. One of the Capability Maturity Model®
Integration goals is to provide measurement results that can be used to objectively evaluate how
effectively standards and procedures are being accomplished.
The IRS has not developed performance measures for all of its transitioned modernization
activities that can be measured. For example, the Quality Assurance Office has done a good job
of developing measures and is developing additional measures, while the IRS has planned for,
but not developed, measures for other activities such as business rules and requirements
management.
Most of management’s focus has been on hiring staff to perform
transitioned activities and getting processes and procedures
developed and implemented. However, we believe it is now             If performance measures are
time to begin measuring progress. If performance measures are        not developed and analyzed,
not developed and analyzed, IRS management will not have an         taxpayer funds could be used
                                                                              inefficiently.
objective method of determining if transitioned activities are
being performed effectively and taxpayer funds are being used
efficiently.

Recommendation
Recommendation 1: To ensure the IRS is successful in performing modernization activities
that have been transitioned from the PRIME contractor, the Chief Information Officer should
ensure performance measures are developed for each transitioned modernization activity that can
be measured. When traditional performance measures are difficult to develop, the IRS can
obtain feedback from modernization stakeholders and users to measure customer satisfaction.



                                                                                          Page 8
         The Internal Revenue Service Is Successfully Taking Steps to
        Transition Modernization Activities From the PRIME Contractor;
                     However, Difficult Challenges Remain



Management’s Response: The Chief Information Officer agreed with our
recommendation and will develop a plan to identify potential performance metrics for
each measurable transitioned modernization activity.




                                                                                 Page 9
                    The Internal Revenue Service Is Successfully Taking Steps to
                   Transition Modernization Activities From the PRIME Contractor;
                                However, Difficult Challenges Remain



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall audit objective of this review was to determine whether the IRS was sufficiently
planning, obtaining resources, and executing modernization activities to transition activities from
the PRIME contractor1 for the Business Systems Modernization program. To accomplish this
objective, we:
I.       Determined the specific activities being transitioned from the PRIME contractor to the
         IRS by discussing systems integration program areas with IRS executives to ensure all
         transition program areas were identified.
II.      Determined whether the IRS established and met appropriate closure criteria for the
         14 HPIs identified jointly by the IRS and the audit team.2
         A. Evaluated whether the closure criteria were appropriate for the HPIs.
         B. Determined whether the closure criteria for the closed HPIs were satisfied prior to
            closure of the HPIs.
III.     Determined whether the IRS hired appropriate staff to perform modernization activities.
         A. Analyzed staffing charts and identified employees hired to fill new positions.
         B. Selected and reviewed a judgmental sample of 8 (29 percent) of 28 employees hired
            as of March 2006 to fill new positions. We used judgmental sampling because we did
            not plan to project our sample results.
             1. Obtained the job announcements and applications submitted by the eight
                employees.
             2. Determined whether the employees were qualified for the position by reviewing
                the key skills and abilities contained in the eight employee applications.
         C. Discussed remaining staffing vacancies with IRS officials to determine hiring plans.
IV.      Determined whether there was evidence indicating the transition of activities from the
         PRIME contractor to the IRS was occurring, or had occurred and was effective.




1
 See Appendix IV for a glossary of terms.
2
 The IRS identified a fifteenth HPI; however, we determined it did not relate to the transition of activities from the
PRIME contractor to the IRS. See Appendix V for a listing of the 14 HPIs.
                                                                                                              Page 10
         The Internal Revenue Service Is Successfully Taking Steps to
        Transition Modernization Activities From the PRIME Contractor;
                     However, Difficult Challenges Remain



A. Interviewed IRS executives to obtain their views on how the transition of systems
   integrator roles was progressing and methods used to monitor the transition.
B. Obtained evidence showing the systems integrator program areas had been
   implemented.




                                                                                Page 11
                The Internal Revenue Service Is Successfully Taking Steps to
               Transition Modernization Activities From the PRIME Contractor;
                            However, Difficult Challenges Remain



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Troy Paterson, Audit Manager
Wallace Sims, Lead Auditor
Tina Wong, Senior Auditor
Charlene Elliston, Auditor




                                                                                     Page 12
               The Internal Revenue Service Is Successfully Taking Steps to
              Transition Modernization Activities From the PRIME Contractor;
                           However, Difficult Challenges Remain



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:B
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 13
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



                                                                          Appendix IV

                             Glossary of Terms

Term                                   Definition
Baseline                               A baseline consists of a specified set of
                                       documents, software, and other items
                                       defined as final (or point-in-time) products
                                       for a project. A baseline establishes a
                                       predefined point from which to evaluate
                                       project progress.
Business Rule                          A business rule is a statement that defines
                                       or constrains some aspect of the business.
Capability Maturity Model®             The Capability Maturity Model® is a
                                       structured process that helps organizations
                                       improve their abilities to consistently and
                                       predictably acquire and develop
                                       high-quality information systems.
                                       Organizations that have implemented
                                       Capability Maturity Model® processes have
                                       seen dramatic improvements in their
                                       abilities to meet planned time periods,
                                       reduce errors, and increase value on dollars
                                       invested.
Change Request                         A change request is the medium for
                                       requesting approval to change a baselined
                                       product or other controlled item.
Concept of Operations                  The Concept of Operations is a framework
                                       that includes a defined vision, strategic
                                       goals, operational themes, and program
                                       capabilities. It identifies key
                                       organizational concepts required to achieve
                                       the organization’s vision.




                                                                                      Page 14
               The Internal Revenue Service Is Successfully Taking Steps to
              Transition Modernization Activities From the PRIME Contractor;
                           However, Difficult Challenges Remain



Term                                   Definition
Earned Value Management                Earned value management involves
                                       measuring actual cost and work
                                       accomplished against the budgeted cost and
                                       planned work scheduled. Variances are
                                       analyzed for decision making.
Enterprise Life Cycle                  The ELC is a structured business systems
                                       development method that requires the
                                       preparation of specific work products
                                       during different phases of the development
                                       process.
Extensible Markup Language             Extensible Markup Language is the
                                       universal format for structured documents
                                       and data on the Internet.
Human Capital                          Human capital is defined by the National
                                       Academy of Public Administration as the
                                       “identification of competencies and skills
                                       … needed to realize an organization’s
                                       mission and operating goals.” According
                                       to the GAO, acquiring and developing
                                       staffs whose size and skills meet agency
                                       needs is one of the most pervasive
                                       challenges now facing the Federal
                                       Government.
Information Technology Modernization   Information Technology Modernization
Vision and Strategy                    Vision and Strategy establishes a 5-year
                                       plan that drives investment decisions,
                                       addresses the priorities around modernizing
                                       front-line tax administration and supporting
                                       technical capabilities, and leverages
                                       existing systems (where possible) and new
                                       development (where necessary) to optimize
                                       capacity, manage program costs, and
                                       deliver business value on a more
                                       incremental and frequent basis.
Integrated Master Schedule             The Integrated Master Schedule provides a
                                       schedule for project development and
                                       integration of all modernization projects.

                                                                                    Page 15
               The Internal Revenue Service Is Successfully Taking Steps to
              Transition Modernization Activities From the PRIME Contractor;
                           However, Difficult Challenges Remain



Term                                 Definition
Milestone                            Milestones provide for “go/no-go” decision
                                     points in a project and are sometimes
                                     associated with funding approval to
                                     proceed.
Monte Carlo Analysis                 Monte Carlo simulation is a complex
                                     mathematical technique that has been used
                                     for many years in the space program and
                                     other industries. It helps estimate the
                                     probability of meeting specified future
                                     goals.
PRIME Contractor                     The PRIME contractor is the Computer
                                     Sciences Corporation, which heads an
                                     alliance of leading technology companies
                                     brought together to assist with the IRS’
                                     efforts to modernize its computer systems
                                     and related information technology.
Release                              A release is a specific edition of software.
Software Engineering Institute       The Software Engineering Institute is a
                                     Federally Funded Research and
                                     Development Center whose purpose is to
                                     help others make measured improvements
                                     in their software engineering capabilities.
Systems Integrator                   The systems integrator entity is responsible
                                     for coordinating development projects into
                                     the modernized IRS systems.
Task Order                           A task order is an order for services
                                     planned against an established contract.
Work Breakdown Structure             A work breakdown structure is a
                                     deliverable-oriented grouping of project
                                     elements that organizes and defines the
                                     total scope of the project.




                                                                                    Page 16
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



                                                                                   Appendix V

           Independent Assessment of the Status of
             Transitioned Modernization Activities

In January 2005, the IRS learned it would be receiving a larger than expected budget cut. As a
result, it had to assume modernization activities quickly because it could no longer afford to pay
for all of the PRIME contractor’s services. Therefore, the plans and actions we reviewed were
viewed as the steps needed to establish an initial capability. Additional steps to build on this
capability are now underway. We determined the IRS is effectively performing 2 (14 percent) of
the 14 modernization activities. For the remaining 12 activities, the IRS has taken good first
steps and established an initial capability; however, ongoing actions need to be completed before
we can determine whether the IRS will be successful in performing transitioned activities.
Although the IRS has always had responsibilities for these activities, the systems integrator role
is a significant operational change for the IRS. In the past, the IRS provided oversight of the
PRIME contractor’s activities and personnel. In its new role as systems integrator, the IRS
assumed more responsibility for developing new procedures, hiring and providing expert
personnel, and implementing new offices to lead modernization activities.
Chart 1 provides a listing of the modernization activities included in our review, a brief
description of each of the activities, major accomplishments by the IRS, and our opinion as to
whether the IRS has been effective in performing the modernization activities or additional
actions are underway for the IRS to be successful in performing transitioned modernization
activities.




                                                                                           Page 17
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



             Chart 1: Listing of Transitioned Modernization Activities

Modernization     Brief              Major                       TIGTA Opinion on
Activity          Description        Accomplishments             Effectiveness
Human Capital     Design a           The IRS used a model to     Additional Actions Underway –
                  strategy to        determine how many          The IRS has begun hiring
                  recruit and hire   additional employees        employees with the needed skills.
                  staff with         were needed to perform      However, it has not been able to
                  needed skills      modernization activities,   fill all positions and it has not
                  for                and a recruiting strategy   been able to fully implement its
                  modernization.     to attract and hire         recruiting strategy. The IRS has a
                                     critically skilled          hiring plan to fill remaining
                                     individuals to address      positions and has created a
                                     modernization needs         function under the direction of the
                                     was developed.              Associate Chief Information
                                                                 Officer, Applications
                                                                 Development, to implement the
                                                                 recruiting strategy.
Program           Design a           This program area was       Additional Actions Underway –
Management        training           completed near the end      The next step for the IRS will be
                  program to         of our audit work;          to consistently manage its
                  enhance the        therefore, we reviewed      projects using the skills recently
                  program            only the plan for this      obtained during training sessions.
                  management         area. According to IRS
                  skills of the      status reports, the IRS
                  IRS staff.         provided training to its
                                     Acquisition Project
                                     managers, including
                                     courses in Earned Value
                                     Management and Monte
                                     Carlo Analysis.




                                                                                           Page 18
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



Modernization     Brief             Major                      TIGTA Opinion on
Activity          Description       Accomplishments            Effectiveness
Systems           Hire 80 percent   The IRS hired 8 of         Effective – The IRS staffed the
Engineering       of the            10 employees needed to     Modernization Program
                  engineering       fully staff the            Engineering Office and
                  staff needed in   Modernization Program      eliminated all contractor support.
                  the               Engineering Office.        Project teams provided positive
                  Modernization                                feedback on the performance of
                  Program                                      the new employees.
                  Engineering
                  Office.
Standard          Develop           The IRS developed          Additional Actions Underway –
Contracting       language for      templates containing       Although one project used the
Language          all contractors   language for all           contracting language during our
                  to follow when    contractors to follow      review, the IRS informed us it
                  competing for     when competing for IRS     was preparing to ensure other
                  IRS               modernization contracts.   contracting officials had access to
                  modernization     The contracting            the language and planning to
                  contracts.        language has been used     issue instructions requiring
                                    in a task order for one    Contracting Officers and
                                    project release.           Contracting Officers Technical
                                                               Representatives to begin using the
                                                               language in the templates.




                                                                                         Page 19
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



Modernization     Brief            Major                      TIGTA Opinion on
Activity          Description      Accomplishments            Effectiveness
Quality           Develop a        The IRS developed a        Additional Actions Underway –
Assurance         process for      framework for              The Quality Assurance
                  implementing     implementing quality       Framework has been developed
                  quality          assurance activities in    and performance measures are
                  assurance in     the modernization          captured and reported monthly to
                  the IRS          program. The Quality       IRS executive management.
                  modernization    Assurance staff has        While the Quality Assurance
                  program.         developed Quality          Office has substantively assumed
                                   Assurance plans for        its new role, it has plans to
                                   three modernization        develop additional measures and
                                   projects. In addition,     has not used all of its new
                                   the Quality Assurance      procedures.
                                   Office has developed
                                   performance measures
                                   for the projects, and
                                   reports measurement
                                   results monthly to the
                                   Associate Chief
                                   Information Officer,
                                   Applications
                                   Development.
Integrated        Develop a plan   The IRS created an         Additional Actions Underway –
Schedule and      to implement     Implementation Plan to     The IRS developed the integrated
Baseline          integrated       develop an Integrated      work breakdown structure and
Management        schedule and     Master Schedule. As        schedule templates during our
                  baseline         part of the work to        review. To fully implement this
                  management.      accomplish the Plan, the   capability, project teams will
                                   IRS subsequently           need to consistently use the
                                   developed templates for    templates and the IRS will need
                                   an integrated work         to begin managing dependencies
                                   breakdown structure and    between projects controlled on
                                   schedule.                  the Integrated Master Schedule.




                                                                                      Page 20
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



Modernization     Brief            Major                        TIGTA Opinion on
Activity          Description      Accomplishments              Effectiveness
Cost and          Develop cost     IRS officials stated, due    Additional Actions Underway –
Schedule          and schedule     to resource constraints,     The IRS is in the process of
Estimation        estimation       their initial work has       finalizing its Cost and Schedule
                  processes and    been limited to drafting     Estimation Concept of Operations
                  identify gaps    a Cost and Schedule          and incorporating a process to
                  between the      Estimation Concept of        obtain feedback from projects that
                  IRS’ existing    Operations and               use its services. Also, the IRS
                  capabilities     providing independent        has identified gaps between its
                  and the          cost estimates to            current capabilities and the
                  Software         modernization projects.      Software Engineering Institute’s
                  Engineering      In addition, the IRS         recommended capabilities it has
                  Institute’s      analyzed its cost and        yet to address due to resource
                  estimation       schedule estimation          constraints.
                  requirements.    capability and identified
                                   needs it has to address in
                                   order to achieve
                                   estimation best
                                   practices.
Change            Revise the       This program area was        Additional Actions Underway –
Management        change request   completed near the end       On June 9, 2006, the IRS revised
                  processes.       of our audit work.           its Change Request Procedure to
                                   Therefore, we reviewed       reflect the IRS as having the
                                   only the plan for this       primary responsibility for change
                                   area. According to IRS       request processing. In addition, it
                                   status reports, the IRS      made changes to the change
                                   completed revisions to       request tracking system to match
                                   the change request           its revised procedure. The IRS’
                                   system and revised its       next step will be to monitor and
                                   change processes.            ensure implementation of its
                                                                recently revised procedure.




                                                                                          Page 21
                 The Internal Revenue Service Is Successfully Taking Steps to
                Transition Modernization Activities From the PRIME Contractor;
                             However, Difficult Challenges Remain



Modernization     Brief             Major                     TIGTA Opinion on
Activity          Description       Accomplishments           Effectiveness
Extensible        Establish a       The IRS established a     Additional Actions Underway –
Markup            working group     working group and         The IRS stated it was
Language          and issue draft   issued draft Naming and   implementing a framework, with
                  Naming and        Design Rules. Several     the Naming and Design Rules
                  Design Rules.     project teams are using   being the first part of the
                                    Extensible Markup         framework. The IRS is currently
                                    Language products.        working on common components,
                                                              the third part of its framework.




                                                                                      Page 22
                  The Internal Revenue Service Is Successfully Taking Steps to
                 Transition Modernization Activities From the PRIME Contractor;
                              However, Difficult Challenges Remain



Modernization      Brief             Major                     TIGTA Opinion on
Activity           Description       Accomplishments           Effectiveness
Business Rules     Establish a       The IRS established and   Additional Actions Underway –
                   limited initial   staffed the Business      We interviewed project personnel
                   operational       Rules office and          from one project that received
                   capability for    developed a Concept of    assistance from the Business
                   business rules,   Operations.               Rules staff. Project personnel
                   including                                   provided positive feedback. In
                   having the                                  our opinion, it will take time for
                   appropriate                                 the IRS to mature its Business
                   skills and                                  Rules capabilities. The Business
                   processes in                                Rules staff will need more
                   place.                                      experience with additional
                                                               projects to learn lessons and
                                                               improve processes. Until then, it
                                                               is difficult to judge whether the
                                                               IRS has fully implemented its
                                                               new role of managing business
                                                               rules.




                                                                                        Page 23
                   The Internal Revenue Service Is Successfully Taking Steps to
                  Transition Modernization Activities From the PRIME Contractor;
                               However, Difficult Challenges Remain



Modernization        Brief               Major                          TIGTA Opinion on
Activity             Description         Accomplishments                Effectiveness
Requirements         Develop a           The IRS established and        Additional Actions Underway –
Management           Concept of          staffed the                    We interviewed project personnel
                     Operations,         Requirements                   from one project that received
                     establish an        Management Office and          assistance from the Requirements
                     office, and         developed a Concept of         Management staff. Project
                     begin pilot         Operations.                    personnel provided positive
                     operations.                                        feedback; however, some
                                                                        responsibilities were not clearly
                                                                        defined. Also, the GAO recently
                                                                        reported modernization projects
                                                                        were not consistently following
                                                                        requirements development and
                                                                        management practices and the
                                                                        IRS would not have a full suite of
                                                                        requirements processes until
                                                                        March 2007.1 It will take time for
                                                                        the IRS to mature its
                                                                        Requirements Management
                                                                        capabilities. Until that time, it is
                                                                        difficult to judge whether the IRS
                                                                        has fully implemented its new
                                                                        role of managing requirements.
Enterprise           Develop             The Enterprise                 Additional Actions Underway –
Transition           volume 1 of         Transition Strategy has        As we were completing our audit,
Strategy             the Enterprise      been developed and will        the IRS was creating the
                     Transition          become part of the             Enterprise Transition Plan using
                     Strategy.           Enterprise Transition          the Enterprise Transition
                                         Plan.                          Strategy.




1
 Business Systems Modernization: IRS Needs to Complete Recent Efforts to Develop Policies and Procedures to
Guide Requirements Development and Management (GAO-06-310, dated March 2006).
                                                                                                     Page 24
                     The Internal Revenue Service Is Successfully Taking Steps to
                    Transition Modernization Activities From the PRIME Contractor;
                                 However, Difficult Challenges Remain



 Modernization         Brief                 Major                           TIGTA Opinion on
 Activity              Description           Accomplishments                 Effectiveness
 Modernization         Develop a             The IRS completed the           Additional Actions Underway –
 Vision and            high-level            Modernization Vision            The IRS completed its first
 Strategy              modernization         and Strategy and the            update to the Modernization
                       vision and            IRS Oversight Board             Vision and Strategy since 2002.
                       strategy              approved it. In addition,       According to IRS officials, the
                       document.             the Associate Chief             IRS learned valuable lessons as
                                             Information Officer,            part of this exercise and is
                                             Applications                    developing procedures to ensure
                                             Development, informed           the Modernization Vision and
                                             us the Modernization            Strategy will be updated yearly.
                                             Vision and Strategy has
                                             been approved by the
                                             Office of Management
                                             and Budget.
 Enterprise Life       Revise the            The IRS has revised the         Effective – The ELC Guide was
 Cycle                 ELC Guide to          ELC Guide to include            revised and project teams that
                       include paths         only the information            have recently used the services of
                       common to             commonly needed by              the ELC staff provided positive
                       IRS                   modernization projects.         feedback.
                       modernization         Also, the ELC staff has
                       projects.             begun assisting projects
                                             by developing ELC
                                             tailoring plans for two
                                             projects.
Source: Transitioned activities chosen by the TIGTA audit team, with input from IRS officials, IRS status reports,
and documentation provided by the IRS.




                                                                                                            Page 25
    The Internal Revenue Service Is Successfully Taking Steps to
   Transition Modernization Activities From the PRIME Contractor;
                However, Difficult Challenges Remain



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 26
 The Internal Revenue Service Is Successfully Taking Steps to
Transition Modernization Activities From the PRIME Contractor;
             However, Difficult Challenges Remain




                                                         Page 27
 The Internal Revenue Service Is Successfully Taking Steps to
Transition Modernization Activities From the PRIME Contractor;
             However, Difficult Challenges Remain




                                                         Page 28
